              CONCERNS RELATED TO [ EXEMPTION 6 ]
                     COMPLIANCE WITH 8(A) BUSINESS
               DEVELOPMENT PROGRAM REQUIREMENTS


            MANAGEMENT ADVISORY REPORT NUMBER 6-27

                                SEPTEMBER 8, 2006




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of Inspector General.
                       U.S. SMALL BUSINESS ADMINISTRATION 

                           OFFICE OF INSPECTOR GENERAL 

                               WASHINGTON, D.C. 20416




                                                                 MANAGEMENT ADVISORY
                                                                       REPORT
                                                                Issue Date: September 8, 2006
                                                                Report Number: 6-27
TO:	          David Dickson
              District Director, Philadelphia District Office

              /s/ Original Signed
FROM:         Debra S. Ritt
              Assistant Inspector General for Auditing

SUBJECT:	 Concerns Related to[EXEMPTION 6]Compliance with 8(a) Business
          Development Program Requirements


       During February 2006, the Office of Inspector General (OIG) initiated an audit to review
two sole source 8(a) set-aside [EXEMPTION 4] awarded by the Department of the Army, Corps
of Engineers. The overall objective of the audit was to determine whether the [EXEMPTION
4]were awarded and performed in compliance with 8(a) Business Development program laws
and regulations. Although the audit is ongoing, the OIG has identified concerns regarding
[EXEMPTION 6]work performance on one of the subject 8(a) [EXEMPTION 4], number
[EXEMPTION 2], that warrant your immediate attention. [EXEPMTION 6] is an 8(a) firm
serviced by the Small Business Administration’s (SBA) Philadelphia District Office.

        The concerns are based on our review of applicable Federal laws and regulations;
interviews with SBA officials from the Office of Size Standards, Office of Government
Contracting, Office of Business Development, Philadelphia District Office, and officials from the
Philadelphia District Army Corps of Engineers (Philadelphia Corps of Engineers), who were
responsible for the contract's procurement and completion; and review of documentation
provided by [EXEMPTION 6], the Philadelphia Corps of Engineers, and SBA related to the
procurement and performance of the subject contract.

CONCERNS

       [EXEMPTION 6]did not complete its [EXEMPTION 4]contract in accordance with
applicable SBA requirements. Specifically, [EXEMPTION 6] employees did not perform the
percentage of work specified by SBA requirements and misrepresented itself as a small business
under the contract's specified size standard. Furthermore, evidence exists that [EXEMPTION
6]was aware of the requirements and its responsibilities prior to and during contract
performance.

[EXEMPTION 6]Did Not Perform the Required Percentage of Work

         According to documentation provided by [EXEMPTION 6]during the course of the
audit, it did not perform the required percentage of work in accordance with SBA small business
procurement regulations. 13 CFR 124.510(a) requires an 8(a) participant to perform a specified
percentage of work with its own employees on each 8(a) contract it receives. The percentage is
based on the type of service provided. According to SBA government contracting officials,
[EXEMPTION 4]are considered general construction for purposes of applying the 8(a) work
performance requirements. Accordingly, [EXEMPTION 6]was required to perform at least 15
percent of the cost of the contract, excluding materials, with its own employees.

         In determining whether [EXEMPTION 6]performed its required share of the work, we
reviewed the accepted contract cost proposal, subcontracting agreement, and payroll records for
all of the labor used on the project, including subcontractors. Our review of these documents
disclosed that [EXEMPTION 6]did not complete the required percentage of work for the
services provided. [EXEMPTION 6]subcontracting agreement with [EXEMPTION 6]
indicated that the subcontractor would provide all work described in the prime contract,
including the [EXEMPTION 4]. [EXEMPTION 6]also agreed to perform any work omitted
from the subcontracting agreement’s scope of work that was necessary to finish the contract.
The OIG believes that the subcontracting agreement between [EXEMPTION 6] and
[EXEMPTION 6]documents [EXEMPTION 6] intent to have the subcontractor perform the
entire contract.

        We also calculated the percentage of work performed by [EXEMPTION 6] employees,
using the criteria in 13 CFR 125.6, which totaled 1.9 percent. We compared this to regulatory
and contract performance requirements. The regulations require that at least 15 percent of the
cost of general construction contracts, excluding materials, be performed by the contractor's own
employees. This requirement is found in Federal Acquisition Regulations (FAR) 52.219-14,
Limitations on Subcontracting, and it is incorporated as a performance clause in the contract in
accordance with FAR 19.811-3(e). Because [EXEMPTION 6] did not perform the required 15
percent, it violated SBA 8(a) program requirements and the terms of its 8(a) contract. We have
included our calculation of [EXEMPTION 6] share of the work performed as an attachment to
this report.

        According to Philadelphia Corps of Engineers and SBA Philadelphia District Office
officials, [EXEMPTION 6] should have been aware of its responsibilities regarding the work
percentage requirements. The Philadelphia Corps of Engineers’ contracting officer stated that
[EXEMPTION 6] required work percentage was specifically addressed during the August 30,
2005,             pre-construction conference. The contracting officer told us that she attended
the conference to discuss with [EXEMPTION 6] her concerns about the limited amount of
work to be performed by [EXEMPTION 6] in its cost proposal and to inform [EXEMPTION
6] of its work performance responsibility under the terms of the contract. At the conclusion of


                                                2

the conference, she believed [EXEMPTION 6] understood its responsibilities and would
perform more work with its own employees. The contracting officer's statements and
[EXEMPTION 6]agreement to complete more work were independently verified by the
contracting officer's representative and a construction manager who attended the conference.
However, despite [EXEMPTION 6]acknowledgement that it needed to perform more of the
contract, payroll data revealed that it only incurred $400 in additional costs, equating to 10
additional hours of work. The contracting officer was surprised by this information and said
[EXEMPTION 6]involvement was well below her expectations.

       We also found an August 9, 2005, letter to [EXEMPTION 6] from its SBA Business
Development Specialist that pre-dated the conference. The letter erroneously informed
[EXEMPTION 6] that it was required to perform 25 percent of the work on the contract with its
own employees. SBA’s Office of Government Contracting and Business Development
confirmed that this percentage was in error, and that the 15-percent requirement in the contract
was the correct percentage. Nevertheless, we believe [EXEMPTION 6] knew its work
performance requirements from the contract provisions it agreed to when signing the contract,
discussions at the pre-conference meeting, and SBA’s letter. Despite this knowledge,
[EXEMPTION 6] did not comply with the terms of the contract and 8(a) program regulations.

[EXEMPTION 6] Did Not Meet the Applicable Size Standard

        Our review further disclosed that [EXEMPTION 6] did not meet requirements
mandated by the contract's size standard and inaccurately certified it was small when offering its
proposal to the procuring agency. 13 CFR 121.405 requires a contractor to certify that it is a
small business under the size standard corresponding to the contract's assigned North American
Industry Classification System (NAICS) code. The NAICS code is selected by the procuring
agency's contracting officer based on the principal product or service being acquired. In 2005,
the size standard for the [EXEMPTION 4], required that a firm have no more than $17 million
in annual receipts and use its own equipment or equipment owned by another small
[EXEMPTION 4]for at least 40 percent of the [EXEMPTION 4].

        In order to determine whether [EXEMPTION 6] complied with the 40 percent small
business equipment requirement, we obtained from [EXEMPTION 6] a list of the equipment
used for completing the [EXEMPTION 4]including equipment provided by a subcontractor, or
a third party. The list showed that [EXEMPTION 6]provided all the equipment for the
contract's performance.

       We also compared [EXEMPTION 6]list of subcontractor-supplied equipment with
equipment reported in the Daily Construction Quality Control Reports. As shown in the
following table, the majority of the equipment used to complete the project was supplied by
[EXEMPTION 6]. The Philadelphia Corps of Engineers confirmed that [EXEMPTION 6]
provided all the equipment for the contract.




                                                3

                  A Comparison of Subcontractor-Supplied Equipment 

             Reported by [EXEMPTION 6] and in Daily Construction Reports 


                        [EXEMPTION 6] list of         Equipment list provided in the
                        subcontractor-supplied          daily construction quality
                             equipment                        control reports




                                          EXEMPTION 4




        Discussions with officials at the SBA Philadelphia District Office and Philadelphia Corps
of Engineers revealed that [EXEMPTION 6] may have been unclear about acceptable ways to
meet the 40-percent equipment requirement. Months prior to receiving the contract,
[EXEMPTION 6] formed a Mentor/Protégé relationship with [EXEMPTION 6]under SBA’s
Mentor/Protégé Program. According to the Assistant Administrator for Size Standards,
[EXEMPTION 6] could have used [EXEMPTION 6]equipment to meet the 40 percent
requirement if the mentor and protégé were awarded the contract as a joint venture. However, as
stated in the Notice of Award and the contractor's certification in the contract, this contract was
awarded solely to [EXEMPTION 6] and was not a joint venture. Consequently, [EXEMPTION
6] and [EXEMPTION 6]were independent contractors and [EXEMPTION 6], as the prime
contractor, could not use [EXEMPTION 6]equipment towards meeting the 40 percent
requirement.

CONCLUSION

        Based on the information provided by [EXEMPTION 6], the Philadelphia Corps of
Engineers, and SBA regarding contract performance, [EXEMPTION 6] did not meet the
percentage of work and applicable size standard to be certified as small in its contract proposal.
Consequently, [EXEMPTION 6] violated SBA's small business procurement requirements,
failed to comply with the terms of its contract, and provided inaccurate information to the
Federal Government in order to obtain the [EXEMPTION 4].




                                                 4

        According to 13 CFR 124.303, SBA may terminate a participant from the 8(a) program
before the end of the concern’s program term for “good cause.” We believe that the concerns
outlined in this memo provide sufficient justification for “good cause” to terminate
[EXEMPTION 6] from the program. We also believe it provides adequate basis to suspend
[EXEMPTION 6] during termination proceedings in order to protect the interests of the Federal
government and the small business community. Pursuant to 13 CFR 124.305, SBA may suspend
a concern when it shows a clear lack of program eligibility or conduct, indicating a lack of
business integrity.

RECOMMENDATION

We recommend that the District Director for the Philadelphia District Office:

   1.	 Initiate termination proceedings and immediately suspend [EXEMPTION 6] from the
       8(a) program.


SBA MANAGEMENT’S RESPONSE AND OIG’S EVALUATION OF
MANAGEMENT’S RESPONSE

       The District Director for the Philadelphia District Office concurred with the OIG’s
concerns and the recommendation. The District Director agreed to:

   •	   Immediately suspend [EXEMPTION 6] due to their fraudulent intent of not addressing
        the 40 percent size standard certification requirement, and

   •	   Initiate termination proceedings against [EXEMPTION 6] by conducting an
        investigation of their past performance on other 8(a) contracts and reviewing their
        financial statements to determine if this was an isolated occurrence or if there is a trend in
        [EXEMPTION 6]failing to comply with small business contract work performance
        requirements.

The District Director further stated that if this was an isolated occurrence, [EXEMPTION 6]
will receive a warning and their suspension will be rescinded, however, if it is determined that
[EXEMPTION 6] failed to meet the work performance requirements for other 8(a) contracts, he
will continue with termination proceedings and [EXEMPTION 6] will remain suspended. The
District Director stated that the investigation would be complete and a final decision provided by
October 15, 2006. The District Director’s proposed actions are responsive to the
recommendation.

                                           *****

      The findings included in this report are the conclusions of the Office of Inspector
General’s Auditing Division. The findings and recommendation are subject to review,



                                                  5

management decision, and corrective action by your office in accordance with existing Agency
procedures for audit follow-up and resolution.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-[EXEMPTION 2].




                                               6

                                                                 Attachment 1




         The OIG’s Calculation of [EXEMPTION 6]Share of the Work 

                Performed on the [Exemption 4] Contract 


             Cost Category                         Cost
Cost of the contract
 Amount paid to Norfolk                                    $1,230,358
 Fuel expense                                                $198,476
 [EXEMPTION 6] payroll expense                                $20,560
 Payroll burden expense                                        $6,168
 Estimated overhead                                          $128,019
 Bonding expense                                              $29,304
 Estimated insurance                                          $17,070
    Total                                                  $1,629,955

Less materials                                               $198,476
    Total cost of the contract,
    excluding materials                                    $1,431,479

Percentage of the contract cost,
excluding materials, performed by                               1.9%
[EXEMPTION 6] ($26,728/ $1,431,479)
                                                                                                                       Attachment 2


                                                 REPORT DISTRIBUTION 



Recipient                                                                                                       No. of Copies

Associate Administrator for Business Development .............................................. 1 


Associate Administrator for Size Standards..... .......................................................1 


Associate Administrator for Field Operations..... ....................................................1 


Associate Deputy Administrator for Government Contracting 

and Business Development .....................................................................................1 


Office of the Chief Financial Officer 

Attention: Jeffrey Brown ........................................................................................1 


General Counsel.......................................................................................................3 


U.S. Government Accountability Office .................................................................2 

